No. 20-5123

In the Supreme Court of the United States
CARDELL HAYES,
v.

Petitioner

STATE OF LOUISIANA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE LOUISIANA COURT OF APPEAL, FOURTH CIRCUIT

PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Response was served on each party, or that party’s counsel, as listed below, on
November 16, 2020. Service was made by United States mail—with first-class
postage prepaid.
Mark David Plaisance
Plaisance Law, LLC
P.O. Box 1133
Prairieville, LA 70769
I declare under penalty of perjury that the following is true and correct.
Executed on November 16, 2020.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

